2311 Douglas Street

COCKLE

Le g al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-518

COLORADO DEPARTMENT OF STATE,
Petitioner,

ve.
MICHEAL BACA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR SOUTH DAKOTA AND MISSISSIPPI,
MARYLAND, INDIANA, NEVADA, ALASKA, NEBRASKA, LOUISIANA, OHIO, OKLAHOMA, ARIZONA,
ILLINOIS, DELAWARE, NEW MEXICO, CALIFORNIA, VIRGINIA, SOUTH CAROLINA, WEST VIRGINIA, NORTH
DAKOTA, RHODE ISLAND, MONTANA AND TENNESSEE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the
above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to
the following:

SEE ATTACHED

To be filed for:
JASON R. RAVNSBORG,
South Dakota Attorney General
PAUL S. SWEDLUND,
Assistant Attorney General
Counsel of Record
OFFICE OF THE ATTORNEY GENERAL
STATE OF SOUTH DAKOTA
1302 East Highway 14, Suite 1
Pierre, SD 57501-8501
Telephone: 605-773-3215
paul.swedlund@state.sd.us

Attorneys for Amici Curiae

Subscribed and sworn to before me this 20th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . Y CLL
State of Nebraska . ‘.

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39030
 

Attorneys for Petitioner

Eric Revel Olson Colorado Department of Law 720.508.6548
Counsel of Record Office of the Attorney General
1300 Broadway
10th Floor

Denver, CO 80203

eric.olson@coag.gov

Party name: Colorado Department of State

 

 

Attorneys for Respondent

Lawrence Lessig Harvard Law School 617.496.8853
Counsel of Record 1563 Massachusetts Avenue
Cambridge, MA 02138

lessig@law.harvard.edu

Party name: Micheal Baca

 

 
